BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief ofAmicus Curiae City of Jersey City in
Support of Petitioner in 20-989, City of Newark v.
Fraternal Order of Police Newark Lodge No. 12, was
sent via Next Day Service to the U.S. Supreme Court,
and Next Day service and e-mail service to the
following parties listed below, this 25th day of
February, 2021:
Alan Silber
Pashman Stein Walder Hayden
Court Plaza South
21 Main Street, Suite 200
Hackensack, NJ 07601
(201) 488-8200
asilber@pashmanstein.com

Counsel for Petitioner
Matthew D. Areman
Markowitz & Richman
123 South Broad Street
Suite 2020
Philadelphia, PA 19109
(215) 875-3128
mareman@markowitzandrichman.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Victor A. Afanador
Counsel of Record
Jonathan Carrillo
Francis Kenny
Lite Depalma Greenberg & Afanador, LLC
570 Broad Street, Ste. 1201
Newark, NJ 07102
(973) 623-3000
vafanador@litedepalma.com
Peter Baker
Corporation Counsel City of Jersey City
208 Grove Street, 3rd Floor
Jersey City, New Jersey 07302
(201) 547-5229

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 25, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

I~~ d

c)/1,, /j,

Notary Public

j ~.,

a-o d- /

/J~

[seal]

JOHN D. GALLAGHER
Nolary Public, Slate of Ohio
My Commission Expires
0ebri 11r•r 1-L !?OL3

